  Department of Health and Human Services
                     OFFICE OF

                INSPECTOR GENERAL





NEW JERSEY DID NOT ALWAYS CLAIM

  MEDICAID REIMBURSEMENT FOR

  MEDICARE PART B PREMIUMS IN

   ACCORDANCE WITH FEDERAL

         REQUIREMENTS


    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                      James P. Edert

                                                 Regional Inspector General


                                                         August 2013

                                                        A-02-10-01025

                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating

 divisions will make final determination on these matters.

                                  EXECUTIVE SUMMARY


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In New Jersey, the Department of Human
Services (DHS) administers the Medicaid program.

Section 1843 of the Act allows State programs to enter into an agreement with CMS known as
the buy-in program. The purpose of the Medicaid buy-in program is to permit States to provide
medical insurance protection to designated categories of needy individuals who are eligible for
Medicaid and/or meet certain eligibility requirements.

Pursuant to Chapter 1, Section 110 of the CMS State Buy-In Manual, DHS provides Medicaid
buy-in assistance to eligible beneficiaries included in its buy-in agreement with CMS. Eligibility
requirements for these groups are included in section 1902(a)(10)(E) of the Act. In New Jersey,
these groups include Qualified Individual (QI) Beneficiaries, Qualified Medicare Beneficiaries,
and Specified Low-Income Beneficiaries. Medicaid-eligible individuals who do not belong to
any of these groups are considered Medical Assistance Only Beneficiaries. Each of these
categories has specific income requirements. In addition, pursuant to Chapter 1, Section 110, of
the CMS State Buy-In Manual, premium payments made on behalf of Medical Assistance Only
Beneficiaries do not qualify for Federal Medicaid reimbursement. Further, pursuant to Section
3492.5 of the CMS State Medicaid Manual, redetermination of buy-in eligibility for QI
Beneficiaries must be performed on a yearly basis.

In New Jersey, county boards of social services work with DHS to determine Medicaid
eligibility. In addition, DHS works with the Department of Health and Senior Services (Health
Department) to enroll senior citizens and disabled individuals who qualify as QI Beneficiaries
and Specified Low-Income Beneficiaries into the buy-in program.

OBJECTIVE

The objective of our audit was to determine whether DHS claimed Federal Medicaid
reimbursement for selected Medicare Part A and Part B premiums in accordance with Federal
requirements.

SUMMARY OF FINDINGS

DHS’ claims for Federal Medicaid reimbursement reconciled to their billing records. However,
DHS did not always claim Federal Medicaid reimbursement for premiums in accordance with
Federal requirements. Of the 1,167 beneficiaries that we reviewed with claims in high risk areas,



                                                i
DHS properly claimed Federal Medicaid reimbursement for 34 Medicare Part A beneficiaries
and 176 Part B beneficiaries. However, DHS improperly claimed Federal Medicaid
reimbursement for Medicare Part B premiums paid on behalf of 957 beneficiaries, totaling
$523,919. Of the payments made on behalf of these 957 beneficiaries, payments for 99
beneficiaries contained more than 1 deficiency.

Specifically, DHS improperly claimed Part B premiums for the following high-risk areas:

   •	 720 Medical Assistance Only Beneficiaries for whom CMS did not initially assign an
      eligibility category;

   •	 140 QI Beneficiaries for whom the Health Department did not redetermine program
      eligibility;

   •	 53 QI Beneficiaries for whom the Health Department enrolled in the buy-in program but
      did not maintain documentation to support the individuals’ program eligibility;

   •	 19 QI Beneficiaries whose income exceeded Federal eligibility thresholds;

   •	 133 QI Beneficiaries whose premiums did not meet Federal requirements for retroactive
      payments; and

   •	 13 individuals incorrectly categorized as QI Beneficiaries.

The improper payments occurred because DHS did not have procedures to ensure that premiums
paid for Medical Assistance Only Beneficiaries were not claimed for Federal Medicaid
reimbursement. Further, DHS did not ensure that the Health Department enrolled only QI
individuals in the buy-in program that met Federal eligibility requirements.

RECOMMENDATIONS

We recommend that DHS:

   •	 refund $523,919 to the Federal Government,

   •	 implement procedures to ensure that premiums paid for Medical Assistance Only

      Beneficiaries are not claimed for Federal Medicaid reimbursement, and


   •	 work with the Health Department to ensure that it enrolls only individuals in the buy-in
      program who meet Federal eligibility requirements.




                                               ii
DEPARTMENT OF HUMAN SERVICES COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, DHS partially agreed with our first recommendation
(financial disallowance), disagreed with our second recommendation, and described corrective
actions it has taken to address our third recommendation.

After reviewing DHS’s comments, we maintain that our findings and recommendations are valid.
DHS is responsible for ensuring that Medicaid reimbursement for Medicare premiums are made
in accordance with Federal requirements, and the claims we identified did not meet these
requirements.




                                              iii
                                                  TABLE OF CONTENTS


                                                                                                                              Page

INTRODUCTION.............................................................................................................. 1


          BACKGROUND ..................................................................................................... 1 

              Medicaid Program ........................................................................................ 1 

              Medicaid’s Role in Paying Medicare Part A and/or Part B Premiums ........ 1 

              Buy-In Program Eligibility Groups ............................................................. 1 

              State Buy-In Program in New Jersey ........................................................... 2 


          OBJECTIVE, SCOPE, AND METHODOLOGY ................................................... 2 

               Objective ...................................................................................................... 2 

               Scope ............................................................................................................ 3 

               Methodology ................................................................................................ 3 


FINDINGS AND RECOMMENDATIONS .................................................................... 4 


          UNALLOWABLE FEDERAL REIMBURSEMENT............................................. 4 

              Unallowable Payments for Medical Assistance Only Beneficiaries............ 4 

              Eligibility Redeterminations Not Performed ............................................... 5 

              Insufficient or No Documentation ............................................................... 5 

              Ineligible Beneficiaries ................................................................................ 6 

              Unallowable Retroactive Payments for

                Qualified Individual Beneficiaries ............................................................ 6 

              Incorrect Eligibility Category ..................................................................... 6 


          CAUSES OF THE UNALLOWABLE FEDERAL

           MEDICAID REIMBURSEMENT ....................................................................... 7 


          RECOMMENDATIONS ......................................................................................... 7 


          DEPARTMENT OF HUMAN SERVICES COMMENTS AND

           OFFICE OF INSPECTOR GENERAL RESPONSE ........................................... 7


APPENDIX

          DEPARTMENT OF HUMAN SERVICES COMMENTS




                                                                    iv
                                        INTRODUCTION


BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. Pursuant to section 1905(b) of the Act, the
Federal Government pays its share of each State’s claimed medical assistance expenditures under
Medicaid based on the Federal medical assistance percentage (FMAP), which varies depending
on the State’s relative per capita income. In New Jersey, the Department of Human Services
(DHS) administers the Medicaid program.

Medicaid’s Role in Paying Medicare Part A and/or Part B Premiums

Section 1843 of the Act allows State programs to enter into an agreement with CMS known as
the buy-in program. The purpose of the Medicaid buy-in program is to permit States to provide
medical insurance protection to designated categories of needy individuals who are eligible for
Medicaid and/or meet certain eligibility requirements. The Medicaid buy-in program has the
effect of transferring part of the medical costs for eligible individuals from the federal- and State-
financed Medicaid program to the federally-financed Medicare program. Specifically, the buy-in
program allows participating State Medicaid programs to enroll certain individuals in the
Medicare Part A and/or Part B programs and to pay the monthly premium(s) on behalf of these
individuals. The State can then claim the monthly premium expenditures on the Form CMS-64,
Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program.

Buy-In Program Eligibility Groups

Pursuant to Chapter 1, Section 110 of the CMS State Buy-In Manual, DHS provides Medicaid
buy-in assistance to eligible beneficiaries included in its buy-in agreement with CMS. Eligibility
requirements for these groups are included in section 1902(a)(10)(E) of the Act. These groups
include:

   •	 Qualified Individual (QI) Beneficiaries: For classification as a QI Beneficiary, an
      eligible individual’s income is above 120 percent, but less than 135 percent, of the
      Federal poverty level; his or her resources do not exceed twice the Supplemental Security
      Income (SSI) limit determined by the Social Security Administration; and he or she is not
      otherwise eligible for Medicaid. Pursuant to section 3492.2 of the CMS State Medicaid
      Manual, States can provide up to 3 months of retroactive eligibility into the buy-in
      program for a QI Beneficiary, provided the retroactive period is no earlier than January
      1st of that calendar year. In addition, section 3492.5 of the CMS State Medicaid Manual,



                                                  1

        redetermination of buy-in eligibility for QI Beneficiaries must be performed on a yearly
        basis.

•	   Specified Low-Income Beneficiaries: For classification as a Special Low-Income Medicare
     Beneficiary, an eligible individual’s income is above 100 percent, but does not exceed 120
     percent, of the Federal poverty level; and his or her resources do not exceed twice the SSI
     limit.

•	 Qualified Medicare Beneficiaries: For classification as a Qualified Medicare Beneficiary, an
   eligible individual’s income does not exceed 100 percent of the Federal poverty level, and his
   or her resources do not exceed twice the SSI limit.

Pursuant to Chapter 1, Section 110, of the CMS State Buy-In Manual, premium payments made
on behalf of Medical Assistance Only Beneficiaries do not qualify for Federal Medicaid
reimbursement. New Jersey provides buy-in assistance to these beneficiaries–individuals who
are Medicaid-eligible but do not belong to any of the above groups.

Part B beneficiaries participating in the buy-in program are assigned eligibility category codes
designating the beneficiaries’ classification by either CMS or New Jersey program officials.

State Buy-In Program in New Jersey

In New Jersey, county boards of social services work with DHS to determine Medicaid
eligibility. In addition, DHS works with the Department of Health and Senior Services (Health
Department) to enroll senior citizens and disabled individuals who qualify as QI Beneficiaries
and Specified Low-Income Beneficiaries into the buy-in program. 1

During the 2-year period July 1, 2007, through June 30, 2009, DHS claimed Federal Medicaid
reimbursement for Medicare Part A and Part B premiums totaling $515,799,877 ($284,901,731
Federal share). 2 During this period New Jersey’s FMAP ranged from 50 percent to 61.59
percent.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our audit was to determine whether DHS claimed Federal Medicaid
reimbursement for selected Medicare Part A and Part B premiums in accordance with Federal
requirements.




1
 Pursuant to section 10:72-1.1(b) of the New Jersey Administrative Code, the enrollment process for QI
Beneficiaries and Specified Low-Income Beneficiaries is administered through the Health Department.
2
 Specifically, DHS claimed $99,383,664 ($53,196,456 Federal share) for 10,189 Part A beneficiaries and
$416,416,213 ($231,705,275 Federal share) for 178,022 Part B beneficiaries.


                                                        2

Scope

We reviewed the State agency’s claims for Federal Medicaid reimbursement of Medicare Part A
and Part B premium payments totaling $515,799,877 ($284,901,731 Federal share) made during
the period July 1, 2007, through June 30, 2009.

During our audit, we did not review the overall internal control structure of DHS or the Health
Department. Rather, we limited our internal control review to those controls related to the
objective of our audit.

We performed our fieldwork at DHS’s and the Health Department’s offices in Trenton, New
Jersey.

Methodology

To accomplish our objective, we:

       •	 reviewed applicable Federal and State requirements;

       •	 interviewed CMS officials to gain an understanding of the Medicare buy-in program;

       •	 interviewed DHS and Health Department officials to discuss the State’s policies and
          procedures for calculating and claiming Federal Medicaid reimbursement for Medicare
          Part A and Part B premiums;

       •	 reconciled the State agency’s claims for $515,799,877 ($284,901,731 Federal share) of
          Federal Medicaid reimbursement to DHS billing records; 3

       •	 performed survey work to identify areas with a high risk for improper reimbursement;

       •	 selected for review a judgmental sample of 1,167 beneficiaries 4 with premiums totaling
          $1,001,398 ($649,766 Federal share) from the high-risk areas we identified;

       •	 reviewed, for each of the sampled beneficiaries, the DHS and/or Health Department case
          file records; and

       •	 determined whether DHS claimed Federal Medicaid reimbursement for the Medicare
          premium(s) in accordance with Federal requirements.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
3
 DHS’s billing records are comprised of monthly CMS bills for payment of the Medicare Part A and Part B
premiums for individuals enrolled in the Medicare buy-in program.
4
    The 1,167 beneficiaries selected consisted of 34 Part A beneficiaries and 1,133 Part B beneficiaries.


                                                            3

based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

DHS’ claims for Federal Medicaid reimbursement reconciled to their billing records. However,
DHS did not always claim Federal Medicaid reimbursement for premiums in accordance with
Federal requirements. Of the 1,167 beneficiaries that we reviewed with claims in high risk areas,
DHS properly claimed Federal Medicaid reimbursement for 34 Medicare Part A beneficiaries
and 176 Part B beneficiaries. However, DHS improperly claimed Federal Medicaid
reimbursement for Medicare Part B premiums paid on behalf of 957 beneficiaries, totaling
$523,919. Of the payments made on behalf of these 957 beneficiaries, payments for 99
beneficiaries contained more than 1 deficiency.

Specifically, DHS improperly claimed Part B premiums for the following high-risk areas:

   •	 720 Medical Assistance Only Beneficiaries for whom CMS did not initially assign an
      eligibility category;

   •	 140 QI Beneficiaries for whom the Health Department did not redetermine program
      eligibility;

   •	 53 QI Beneficiaries for whom the Health Department enrolled in the buy-in program but
      did not maintain documentation to support the individuals’ program eligibility;

   •	 19 QI Beneficiaries whose income exceeded Federal eligibility thresholds;

   •	 133 QI Beneficiaries whose premiums did not meet Federal requirements for retroactive
      payments; and

   •	 13 individuals incorrectly categorized as QI Beneficiaries.

The improper payments occurred because DHS did not have procedures to ensure that premiums
paid for Medical Assistance Only Beneficiaries were not claimed for Federal Medicaid
reimbursement. Further, DHS did not ensure that the Health Department enrolled only QI
individuals in the buy-in program that met Federal eligibility requirements.

UNALLOWABLE FEDERAL REIMBURSEMENT

Unallowable Payments for Medical Assistance Only Beneficiaries

Section 1843 of the Act permits States to enroll Medicaid-eligible individuals in Medicare Part B
and pay Part B premiums on their behalf under the State’s buy-in agreement with CMS.
Pursuant to sections 1903(a)(1) and 1905(a) of the Act, FMAP is available to assist States with
the premium payments for certain groups of beneficiaries. Medical Assistance Only
Beneficiaries are Medicaid-eligible individuals who do not belong to any of those groups.


                                                4

Chapter 1, Section 110, of the CMS State Buy-In Manual states that premium payments made on
behalf of Medical Assistance Only Beneficiaries do not qualify for FMAP.

Section 180 of the Manual requires States that cover Medical Assistance Only Beneficiaries in
their buy-in agreements to identify such individuals and states that failure to identify such
beneficiaries may result in erroneous Federal reimbursement to the States for Part B premiums.
The buy-in program uses eligibility codes to identify the specific category of assistance for each
individual enrolled in the buy-in program. Section 410 of the Manual specifies that Medical
Assistance Only Beneficiaries be identified by using an eligibility code of “M.”

Of the 741 Medical Assistance Only Beneficiaries that we reviewed, 720 were beneficiaries for
whom CMS left their eligibility code blank when they were initially enrolled in the buy-in
program. 5 Within a few weeks, DHS assigned these beneficiaries an eligibility code of “M.”
However, for the period that these individuals had a blank eligibility code, DHS claimed and
received Federal Medicaid reimbursement for their Part B premiums. As a result, DHS claimed
unallowable Federal Medicaid reimbursement totaling $331,610 for Part B premiums paid on
behalf of these 720 Medical Assistance Only Beneficiaries. 6

Eligibility Redeterminations Not Performed

Pursuant to section 3492.5 of the CMS State Medicaid Manual, a redetermination of eligibility
must be performed on a yearly basis to evaluate whether QI Beneficiary is entitled to continue
participating in the State’s buy-in program.

Of the 317 QI Beneficiaries that we reviewed, DHS claimed unallowable Federal Medicaid
reimbursement totaling $74,421 for Part B premiums paid on behalf of 140 QI Beneficiaries for
whom the Health Department did not redetermine the beneficiaries’ program eligibility. All 140
QI Beneficiaries had been enrolled in the buy-in program for more than 1 year; however, as of
October 2010, the Health Department had not redetermined their eligibility.

Insufficient or No Documentation

Pursuant to 42 CFR § 431.17, DHS must maintain records of facts essential to determination of
initial and continuing Medicaid eligibility. Section 2497.1 of the CMS State Medicaid Manual
states that FMAP is available only for allowable expenditures made on behalf of eligible
recipients. Expenditures are allowable only to the extent that, when a claim is filed, there is
adequate supporting documentation to ensure that all applicable federal requirements have been
met.

Of the 317 QI Beneficiaries that we reviewed, DHS claimed unallowable Federal Medicaid
reimbursement totaling $72,364 for Part B premiums paid on behalf of 53 QI Beneficiaries for

5
 These individuals were initially enrolled in Medicare Part B by CMS to the buy-in program pursuant to a “Public
Welfare accretion.”
6
 The State agency did not refund the Federal reimbursement received for the initial enrollment premiums paid on
behalf of these beneficiaries.


                                                        5

which the Health Department did not maintain documentation to support the beneficiaries’
eligibility. 7

Ineligible Beneficiaries

Section 1902(a)(10)(E)(iv) of the Act defines QI Beneficiaries as persons who are entitled to
Medicare Part A; have income of at least 120 percent of the federal poverty level, but less than
135 percent; resources that do not exceed twice the limit for Supplemental Security Income
eligibility; and are not eligible for Medicaid.

Of the 317 QI Beneficiaries that we reviewed, DHS claimed unallowable Federal Medicaid
reimbursement totaling $23,914 for Part B premiums paid on behalf of 19 QI Beneficiaries
whose income exceeded Federal eligibility thresholds. For example, the Health Department
enrolled one beneficiary in the buy-in program in October 2008; however, the beneficiary’s total
annual income ($15,046) exceeded Federal eligibility thresholds by more than $1,000. 8

Unallowable Retroactive Payments for Qualified Individual Beneficiaries

Pursuant to section 3492.2 of the CMS State Medicaid Manual, States can provide up to
3 months of retroactive eligibility into the buy-in program for a QI Beneficiary, provided the
retroactive period is no earlier than January 1st of that calendar year.

Of the 317 QI Beneficiaries that we reviewed, DHS claimed unallowable Federal reimbursement
totaling $16,871 for Part B premiums paid on behalf of 133 QI Beneficiaries with retroactive
periods that extended prior to January 1st of the calendar year or with retroactive periods greater
than 3 months. For example:

    •	 One QI Beneficiary applied to the buy-in program in January 2008; however, the Health
       Department retroactively enrolled the beneficiary to October 2007, prior to January 1st of
       the 2008 calendar year.

    •	 One QI Beneficiary applied to the buy-in program in May 2007; however, the Health
       Department retroactively enrolled the beneficiary to January 2007, 1 month more than the
       allowable 3-month retroactive period.

Incorrect Eligibility Category

Of the 317 QI Beneficiaries that we reviewed, DHS claimed unallowable Federal Medicaid
reimbursement totaling $4,739 for Part B premiums paid on behalf of 13 individuals incorrectly
categorized by the Health Department as QI Beneficiaries. These beneficiaries had incomes
below QI Beneficiary qualifying levels; however, they qualified for the buy-in program as

7
 For 9 beneficiaries, the Health Department did not have a case file. For 44 beneficiaries, the Health Department’s
case file did not contain sufficient documentation to support the beneficiaries’ eligibility.
8
  In 2008, the Federal poverty level was $10,040. Therefore, to be eligible as a QI Beneficiary for this period, an
individual’s annual income could not exceed $14,040 - 135 percent of $10,040.


                                                          6

Specified Low-Income Beneficiaries. Because they were incorrectly categorized as QI
Beneficiaries, DHS improperly claimed 100 percent FMAP for their Part B premiums rather than
the appropriate FMAP. 9 For example, one beneficiary applied to the buy-in program in
September 2008. The beneficiary’s total annual income of $12,312 was almost $200 below the
QI Beneficiary eligibility threshold; however, the beneficiary was qualified to enroll in the buy-
in program as a Specified Low-Income Beneficiary.

CAUSES OF THE UNALLOWABLE FEDERAL MEDICAID REIMBURSEMENT

The improper payments occurred because DHS did not have procedures to ensure that premiums
paid for Medical Assistance Only Beneficiaries were not claimed for Federal Medicaid
reimbursement. Further, DHS did not ensure that the Health Department enrolled only QI
individuals in the buy-in program that met Federal eligibility requirements. Health Department
officials attributed the unallowable claims to clerical errors in the calculation of income
limitations when determining a beneficiary’s eligibility. Further, the officials stated that they
were not aware of Federal requirements regarding eligibility redeterminations and the allowable
period for retroactive premium payments. In addition, the Health Department did not ensure that
it maintained adequate documentation to support the eligibility of individuals that it enrolled in
the buy-in program.

RECOMMENDATIONS

We recommend that DHS:

    •	 refund $523,919 to the Federal Government,

    •	 implement procedures to ensure that premiums paid for Medical Assistance Only

       Beneficiaries are not claimed for Federal Medicaid reimbursement, and


    •	 work with the Health Department to ensure that it enrolls only individuals in the buy-in
       program who meet Federal eligibility requirements.

DEPARTMENT OF HUMAN SERVICES COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, DHS partially agreed with our first recommendation
(financial disallowance), disagreed with our second recommendation, and described corrective
actions it has taken to address our third recommendation.

DHS agreed that $192,309 of the $523,919 recommended disallowance should be refunded.
However, DHS stated that the remaining $331,610, associated with beneficiaries whose
eligibility codes were initially blank and subsequently changed to “M” by CMS, should not be
refunded because it was CMS that failed to provide the proper eligibility codes. DHS believes

9
 The FMAP in New Jersey for the period July 1, 2007, through September 30, 2008, was 50 percent; during the
period October 1, 2008, through March 31, 2009, it was 58.78 percent; and during the period April 1, 2009, through
June 30, 2009, it was 61.59 percent.


                                                        7

that it is unreasonable to expect it to administratively track blank eligibility codes and
retroactively reimburse CMS when it was CMS who failed to initially categorize these
beneficiaries. Specifically, DHS stated that it was not cost effective for it to incur additional
administrative costs to correct and adjust these claims. DHS’s comments appear in their entity as
the Appendix.

After reviewing DHS’s comments, we maintain that our findings and recommendations are valid.
DHS is responsible for ensuring that Medicaid reimbursement for Medicare premiums are made
in accordance with Federal requirements, and the claims we identified did not meet these
requirements.




                                               8

APPENDIX

                                                                                                    Page 1 of 4


         APPENDIX: DEPARTMENT OF HUMAN SERVICES COMMENTS




                                        ~tate af ~e!u Jens~
CHRIS C HRJSTIE                        DEPARTMENT OF HUMAN SERVICES
   Governor                  DIVISION OF M EDICAL ASSISTANCE AND HEALTH SERVICES
KIM GUADAGNO                                    POBox 712
                                           TRENTON, NJ 08625-0712
                                                                                              JENNIFERVSLEZ
  LL Gowrnor                                                                                   Commissioner
                                                                                              VALERIE    HAAA
                                               May 7, 2013                                          Director




         James P. Edert
         Regional Inspector General for Audit Services
         Department of Health and Human Services
         Office of Inspector General
         Office of Audit Services Region II
         Jacob K. Javits Federal Building
         26 Federal Plaza - Room 3900
         New York, NY 10278

         Report Number: A-02-10-01025

         Dear Mr. Edert:

         This is in response to your letter dated February 25, 2013 concerning the Department of
         Health and Human Services, Office of the Inspector General's {OIG) draft report entitled
         "New Jersey. Did Not Always Claim Medicaid Reimbursement for Medicare Part 8
         Premiums in Accordance With Federal Requirements". Your letter provides the
         opportunity to comment on this draft report.

         The objective of this review was to determine if the State claimed Federal Medicaid
         reimbursement for selected Medicare Part A and Part B premiums in accordance with
         Federal requirements during the audit period of July 1, 2007 through June 30, 2009.

         The draft audit report concluded that New Jersey's claims for Medicaid reimbursement
         reconciled to its billing records. However, the State did not always claim Medicaid
         reimbursement for premiums in accordance with Federal requirements. Of the 1,167
         beneficiaries that were reviewed with claims in "high risk areas", the State improperly
         claimed Medicaid reimbursement for Medicare Part B premiums paid on behalf of 957
         beneficiaries, totaling $523,919.

         We appreciate the opportunity to provide this response to the draft OIG audit report.
         Following are the auditors' recommendations and the Division of Medical Assistance &
         Health Services {DMAHS) responses:
                                                                                       Page 2 of 4




James P. Edert
May 7, 2013
Page2


Recommendation 1:

The OIG recommends that New Jersey refund $523,919 to the Federal
Government:

The State concurs with some but not all of the findings concerning Part B premiums and
that $192,309 of the requested refund of $523,919 should be refunded to CMS. We
have addressed each category of deficiencies as follows:

   1. Unallowable Payments for Medical Assistance Only Beneficiaries -
      $331 ,610:

       The Centers for Medicare and Medicaid Services (CMS) is responsible for
       assigning Buy-In eligibility Codes (BEC) and bills the DMAHS accordingly.
       Included in the monthly billings are amounts for "blank" BECs which are paid on
       the DMAHS quarterly Form 64 claim. Subsequently, CMS in conjunction with the
       DMAHS assigns an "M" code indicating the· beneficiary is a "Medical Assistance
       Only Beneficiary" and the State is not entitled to Federal reimbursement. The
       auditor's position is that DMAHS received unallowable reimbursement for these
       beneficiaries for the period when the "blank" code was issued and the assigning
       of the correct "M" code.

       DMAHS believes that it is unreasonable to expect DMAHS to administratively
       track these "blank" codes and retroactively reimburse CMS when it is CMS's
       failure to initially provide the proper BEC that has caused the overpayment. The
       monthly CMS billing include numerous errors including duplicate billings and
       "blank" BECs which DMAHS is required to pay without any adjustments for
       duplicates. DMAHS believes these errors are generally offsetting so that
       requiring DMAHS to add an administrative layer to the billing process is
       counterproductive and not cost effective.

   2. Eligibility Redeterminations Not Performed - $7 4,421 :

      The State agrees that eligibility for 140 Qualified Individuals (QI) beneficiaries
      was not re-determined on a timely basis and that the above amount be refunded
      to CMS.

   3. Ins ufficient or No Documentation - $72,364:

      The State agrees there was not sufficient documentation for 53 Ql beneficiaries
      to support their eligibility and that the above amount be refunded to CMS.
                                                                                       Page 3 of 4




James P. Edert
May 7, 2013
Page 3


   4 . Ineligible Beneficiaries- $23,91 4:

       The State agrees that eligibility for 19 Ql beneficiaries was improperly
       determined when their income exceeded Federal eligibility thresholds. The above
       amount should be refunded to CMS.

   5. Unallowable Retroactive Payments for Qualified Individual Beneficiaries -
      $16,861 :

       The State agrees that the retroactive period for 133 Ql beneficiaries were
       improperly determined resulting in unallowable Federal reimbursement of
       S16,861 which should be refunded to CMS.

   6. Incorrect Eligibility Category- $4,739:

       The State agrees that 13 individuals were incorrectly categorized as Ql
       beneficiaries instead of as Specified Low-Income Beneficiaries (SLMB).
       Consequently, the DMAHS improperly claimed 100% FFP rather than the lower
       FFP for SLMB. The above amount should be refunded to CMS.

Recommendation 2:

The OIG recommends that DMAHS implement procedures to ensure that
premiums paid for Medical Assistance Only Beneficiaries are not claimed for
reimbursement:

The State does not agree with this recommendation. As previously stated, it is not cost
effective for the DMAHS to incur additional administrative expense to correct and adjust
billings for improper BECs provided to DMAHS by CMS.

Recommendation 3:

The OIG recomm ends that DMAHS w ork with Department of Health to ensure that
it enrolls only individuals in the buv-ln program who meet Federal eligibility
requirements:

The administration of the SLMB/QI programs was transferred in July 2012 to the
Division of Aging Services, a new division within the Department of Human Services
(DHS). The following process changes have been made to ensure that all enrollees in
the buy-in program meet Federal eligibility requirements:

   •   Ql clients receiving Part B premium assistance receive renewal applications two
       months prior to the start of the next calendar year thereby ensuring timely
       redeterminations.
                                                                                         Page 4 of 4




James P. Edert
May 7, 2013
Page4


   •   Division administrators have been instructed that Ql applicants are not eligible to
       receive retro-active Part B benefits prior to January 1st of each calendar year and
       SLMB applicants are eligible for retro-active benefits prior to the calendar year.
   •   SLMB beneficiaries now receive redetermination applications two months before
       their annual renewal date to ensure timely redeterminations.
   •   The DMAHS provides the Division of Aging Services with a new Yearly Income
       Standards chart in March or April of each year. Consequently, applications
       received prior to receiving the new chart are determined using the prior year's
       chart which could lead to improper eligibility determinations. Division
       administrators have been instructed to review applications processed prior to
       receipt of the Income Standards chart to ensure the client met the current income
       standards.

If you have any questions or require additional information, please contact me or
Richard Hurd at 609-588-2550. I would like to thank the OIG audit team for their
professionalism throughout the audit and our review of their findings and
recommendations.

                                         Sincerely,


                                         \(~~
                                         Valerie Harr
                                         Director

VH:H
c: Jennifer Velez
   Richard Hurd
